APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 8, 2021) ........................... 1a
District Court of McIntosh County, State of
Oklahoma, Journal Entry of Facts and
Conclusions of Law (October 1, 2020) .................... 12a
Stipulations of Counsel
(September 24, 2020)........................................ 15a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 21, 2020) .................................................... 18a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 8, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
BEA ANN EPPERSON,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2017-336
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS,
Judge., Robert L. HUDSON, Judge.
OPINION
HUDSON, JUDGE:
Appellant, Bea Ann Epperson, was tried and convicted at a non-jury trial of two counts of Embezzlement
of Building Trust, in violation of 21 O.S.Supp.2012,
§ 1451 in McIntosh County District Court, Case No.
CF-2014-170. The Honorable James Bland, District

App.2a
Judge, presided at trial and sentenced Epperson to
concurrent terms of five (5) years imprisonment on each
count, all suspended, plus a $500.00 fine. Appellant
now appeals from these convictions and sentences.
In Proposition III of her brief in chief, Appellant
claims the District Court lacked jurisdiction to try
her case. Appellant argues that she is a member of
the Cherokee Nation; that the victims in this case,
Steven and Kinya Meineke, are possible members of
the Creek Nation; and the crimes occurred within the
boundaries of the Creek Reservation. Pursuant to
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), Appellant’s
claim raises three separate questions: (a) the Indian
status of Appellant; (b) the Indian status of the
victims; and (c) whether the crimes occurred on the
Creek Reservation. These issues require fact-finding.
We therefore remanded this case to the District
Court of McIntosh County for an evidentiary hearing.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we requested
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to Appellant’s and/or
either victim’s legal status as an Indian and as to the
location of the crime in Indian Country, the burden
shifts to the State to prove it has jurisdiction. The
District Court was ordered to determine whether
Appellant and the victims have some Indian blood
and are recognized as an Indian by a tribe or the federal government. The District Court was further ordered
to determine whether the crimes in this case occurred
in Indian Country. In so doing, the District Court was
directed to consider any evidence the parties provided,

App.3a
including but not limited to treaties, statutes, maps,
and/or testimony.
We also directed the District Court that in the
event the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties may enter into a written stipulation setting
forth those facts upon which they agree and which
answer the questions presented and provide the
stipulation to the District Court. The District Court
was also ordered to file written findings of fact and
conclusions of law with this Court.
A status hearing was held in this case on September 24, 2020, before the Honorable Michael Hogan,
District Judge. A written findings of fact and conclusions of law from that hearing was timely filed with
this Court along with a transcript of the hearing. The
record indicates that appearing before the District
Court on this matter were attorneys from the Oklahoma Attorney General’s Office, the McIntosh County
District Attorney’s Office and counsel for Appellant.
In its written findings of fact and conclusions of
law, the District Court stated that the parties have
jointly stipulated that the evidence will show Appellant
is 3/64th degree Indian blood of the Cherokee Tribe;
that Appellant was an enrolled member of the Cherokee
Nation Tribe of Oklahoma on the date of the charged
crimes; that the Cherokee Nation Tribe of Oklahoma
is an Indian Tribal Entity recognized by the federal
government; and that the charged crimes in this case
occurred within the Creek Reservation. The District
Court attached as Exhibit 1 to its findings of fact and
conclusions of law a document entitled Stipulations of

App.4a
Counsel signed by all counsel reflecting these stipulations.1
The District Court accepted the stipulations
made by the parties and concluded in its findings of
fact and conclusions of law that Appellant has some
Indian blood, that she is also recognized as an Indian
by a tribe and the federal government and therefore
Appellant is an Indian under federal law. Finally,
the District Court accepted the stipulation of the
parties that the crimes in this case occurred on the
Creek Reservation.
On November 12, 2020, the State filed with this
Court a supplemental brief after remand. In its brief,
the State acknowledges the District Court accepted
the parties’ stipulations as discussed above and the
District Court’s findings. The State contends in its
brief that should this Court find Appellant is entitled
to relief based on the District Court’s findings, this
Court should stay any order reversing the convictions
for thirty (30) days so that the appropriate authorities
can review her case, determine whether it is appropriate to file charges and take custody of Appellant.
Cf. 22 O.S.2011, § 846.
After thorough consideration of this proposition
and the entire record before us on appeal including
the original record, transcripts and the briefs of the
parties, we find that under the law and evidence
1 Although the District Court’s findings of fact and conclusions
of law does not address the racial status of the victims, the
written stipulation does. A handwritten notation at the end of
the written stipulation states that “The parties agree that the
Meinekes are not enrolled tribal members and have no Indian
blood.” This notation is initialed by counsel for both parties.

App.5a
relief is warranted. Based upon the record before us,
the District Court’s findings of fact and conclusions
of law are supported by the stipulations jointly made
by the parties at the status hearing. We therefore
find Appellant has met her burden of establishing
her status as an Indian, having 3/64th degree Indian
blood and being a member of the Cherokee Nation
Tribe of Oklahoma. We further find Appellant met
her burden of proving the crimes in this case occurred
on the Creek Reservation and, thus, occurred in
Indian Country.
Pursuant to McGirt, we find the State of Oklahoma
did not have jurisdiction to prosecute Appellant in
this matter.2 The Judgment and Sentence in this
case is hereby reversed and the case remanded to the
District Court of McIntosh County with instructions
to dismiss the case.3
DECISION
The Judgment and Sentence of the District
Court is REVERSED AND REMANDED WITH
INSTRUCTIONS TO DISMISS. The MANDATE

2 I maintain my previously expressed views on the significance
of McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical solution by
Congress. See Bosse v. State, 2021 OK CR 3, ___ P.3d ___
(Hudson, J., Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and Krafft v. State,
No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J., Specially
Concurs) (unpublished).
3 This resolution renders the other seven propositions of error
raised in Appellant’s brief moot.

App.6a
is not to be issued until twenty (20) days from the
delivery and filing of this decision.4
AN APPEAL FROM THE DISTRICT COURT
OF MCINTOSH COUNTY THE HONORABLE
MICHAEL HOGAN, DISTRICT JUDGE
APPEARANCES AT TRIAL
Janet Bickel-Hutson
Attorney at Law
417 West Broadway St.
Muskogee, OK 74401
Counsel for Defendant
Carol Iski
District Attorney
Greg Stidham
Asst. District Attorney McIntosh County
110 North 1st St.
Eufaula, OK 74432
Counsel for the State
Mike Hunter
Attorney General of Oklahoma
Joshua Fanelli
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for the State

4 By withholding issuance of the mandate for twenty days, the
State’s request for time to determine further prosecution is
rendered moot.

App.7a
APPEARANCES ON APPEAL
Kimberly D. Heinze
Okla. Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Keeley L. Miller
Asst. Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
OPINION BY: HUDSON, J.
KUEHN, P.J.: CONCUR IN RESULT
ROWLAND, V.P.J.: CONCUR
LUMPKIN, J.: CONCUR IN RESULT
LEWIS, J.: CONCUR IN RESULT

App.8a
LUMPKIN, JUDGE
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___, 140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded
to do what an average citizen who had been fully
informed of the law and facts as set out in the dissents
would view as an exercise of raw judicial power to reach
a decision which contravened not only the history
leading to the disestablishment of the Indian reservations in Oklahoma, but also willfully disregarded
and failed to apply the Court’s own precedents to the
issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required
me to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.9a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would
trade and associate. I just cannot get through my
mind how this bill can possibly be made to operate in
a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.10a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join
with Chief Justice Roberts and the dissenters in
McGirt and recognize “the emperor has no clothes” as
to the adherence to following the rule of law in the
application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice
Roberts and Justice Thomas eloquently show the
Majority’s mischaracterization of Congress’s actions
and history with the Indian reservations. Their dissents
further demonstrate that at the time of Oklahoma
Statehood in 1907, all parties accepted the fact that
Indian reservations in the state had been disestablished
and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any
disrespect to our Federal-State structure. I simply
believe that when reasonable minds differ they must
both be reviewing the totality of the law and facts.

App.11a
LEWIS, JUDGE, CONCURRING IN RESULTS:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in result in the
decision to dismiss this case for the lack of state
jurisdiction.

App.12a

DISTRICT COURT OF MCINTOSH COUNTY,
STATE OF OKLAHOMA, JOURNAL ENTRY
OF FACTS AND CONCLUSIONS OF LAW
(OCTOBER 1, 2020)
IN THE DISTRICT COURT OF
MCINTOSH COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff,
v.
BEA ANN EPPERSON,
Defendant.
________________________
Case No. CF-2014-170
Court of Criminal Appeal Number F-2016-1030
Before: Michael HOGAN, District Judge
McIntosh County State of Oklahoma.
JOURNAL ENTRY OF FACTS
AND CONCLUSIONS OF LAW
IN ACCORDANCE WITH ORDER
REMANDING FOR EVIDENTIARY HEARING
ISSUED AUGUST 21, 2020
Now on the 24th day of September, 2020, this case
comes on for evidentiary hearing for the purpose of
determining the following: (a) Defendant’s Indian
status and (b) whether the crimes occurred on the

App.13a
Creek Reservation. The Defendant did not appear, but
appeared through counsel, Janet L. Bickel Hutson.
The State appears by and through McIntosh County
District Attorney, Carol Iski, and assistant district
attorney, Greg Stidham. The Oklahoma Attorney
General’s Office appears by and through counsel,
Joshua R. Fanelli.
After receiving argument and evidentiary
stipulations the Court hereby FINDS and ORDERS
as follows:
FINDINGS OF FACT
AND CONCLUSION OF LAW
The first issue for adjudication is the Defendant’s
status as an Indian as defined by federal law. The
Tenth Circuit’s decision in United States v. Diaz, 679
F.3d 1183 (10th Cir. 2012) articulates the test for
making such determination. As Diaz states:
To find that a person is an Indian the court
must first make factual findings that the
person has some Indian blood and, second,
that the person is recognized as an Indian
by a tribe or by the federal government.
Id. at 1187 (internal quotations omitted); see also
Goforth v. State, 1982 OK CR 48, 644 P.2d 114. Applied
to the present matter, the parties jointly stipulate in
writing the evidence will show “the Defendant, Bea
Ann Epperson, is 3/64 degree Indian blood of the
Cherokee Nation Tribe.” See Joint Exhibit I (attached).
In addition, “Defendant Epperson was an enrolled
member of the Cherokee Nation Tribe of Oklahoma
on the dates of the charged offenses.” Id. Finally, “[t]he
Cherokee Nation Tribe of Oklahoma is an Indian
Tribal Entity recognized by the federal government.”

App.14a
Id. The Court accepts and attaches these stipulations
to the Court’s Findings of Facts and Conclusions of
Law. Applying elements of Diaz to the evidentiary
stipulations in the present matter, the Court finds
the Defendant has “some Indian blood” and is also
“recognized as an Indian by a tribe and the federal
government.” For this reason, the Court finds the
Defendant is an Indian under federal law.
Having found the Defendant is an Indian under
federal law, this Court must now determine if the
crime occurred on the Creek Reservation. As McGirt
v. Oklahoma, 140 S. Ct. 2452, 207 L.Ed.2d 985 (2020)
explains “[t]he 1833 Treaty fixed borders for what
was to be a ‘permanent home to the whole Creek nation
of Indians.’ Id. at 2461. The parties in this matter
stipulate “[t]he charged crimes occurred within the
Creek Reservation.” For this reason, the Court adopts
the stipulation and finds the crime occurred on the
Creek Reservation.
In accordance with the directives of the Oklahoma
Court of Criminal Appeals, the court reporter shall
file an original and two certified copies of the transcript
of this hearing within (20) days. This District Court
Clerk shall transmit the record of the evidentiary
hearing, this Journal Entry of Findings of Facts and
Conclusions of Law with attachments, and the
transcript of this proceeding to the Clerk of the Court
of Criminal Appeals.
BE IT SO ORDERED
/s/ Michael Hogan
District Judge
McIntosh County, State of Oklahoma

App.15a
STIPULATIONS OF COUNSEL
(SEPTEMBER 24, 2020)
IN THE DISTRICT COURT OF MCINTOSH
COUNTY STATE OF OKLAHOMA
________________________
BEA ANN EPPERSON,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-336
District Court Case No: CF-2014-170
STIPULATIONS OF COUNSEL
NOW, on this 24th day of September, 2020, Janet
L. Bickel Hutson, Attorney for Appellant, Joshua R.
Fanelli, Assistant Attorney General, Hannah K. White,
Assistant Attorney General, and Carol Iski, District
Attorney for District 25, hereby enter the following
stipulations in the above-captioned matter.
1.

That the Appellant herein was charged five
(5) counts of Embezzlement; however Counts
3, 4 and 5 were dismissed by the State. The
Defendant was found guilty by a trial to the
judge on Counts 1 and 2 and Sentenced to a
5 year suspended sentence as to each running

App.16a
concurrently, 1 year District Attorney Supervision, $500.00 fine as to both counts, and
$250.00 Pre-sentence investigation.
2.

The Appellant has been an enrolled member
of the Cherokee Nation, a federally-recognized
Indian Tribal Entity, since August 6, 1988,
and was an enrolled member at the time of
her crimes in this case.

3.

The Appellant has 3/64 degree Indian blood
as recognized by the Cherokee Nation.

4.

The location of the offenses the Appellant was
charged and convicted of occurred within
the boundaries of the Muscogee (Creek)
Nation reservation.

5.

The Parties agree that the Meinekes are not
enrolled tribal members and have no Indian
Blood
Respectfully submitted,
/s/ Janet L. Bickel Hutson
OBA #14097
Janet L. Bickel Hutson, PLLC
417 W. Broadway
Muskogee, OK 74401
(918) 912-2310 telephone
(918) 912-2309 facsimile
janet@bickelhutsonlaw.com
Attorney for Appellant

App.17a
/s/ Joshua R. Fanelli
OBA #33503
Hannah K. White, OBA #34192
Assistant Attorneys General
Criminal Appeals Unit
Oklahoma Attorney General’s Office
313 NE 21st Street
Oklahoma City, OK 73105
/s/ Carol Iski
District Attorney for District 25
McIntosh County D.A.’s Office
McIntosh County Courthouse
110 North 1st Street
Eufaula, OK 74432
Attorneys for Appellee

App.18a

COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
BEA ANN EPPERSON,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2017-336
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant, Bea Ann Epperson, was tried and convicted at a non-jury trial of two counts of Embezzlement of Building Trust, in violation of 21 O.S.Supp.2012,
§ 1451 in McIntosh County District Court, Case No.
CF-2014-170. The Honorable James Bland, District

App.19a
Judge, presided at trial and sentenced Epperson to
concurrent terms of five years imprisonment on each
count, all suspended, plus a $500.00 fine. Appellant
now appeals from these convictions and sentences.
In Proposition III of her brief in chief, Appellant
claims the District Court lacked jurisdiction to try
her case. Appellant argues that she is a member of
the Cherokee Nation; that the victims in this case,
Steven and Kinya Meineke, are possible members of
the Creek Nation; and the crimes occurred within the
boundaries of the Creek Reservation.
Pursuant to McGirt v. Oklahoma, No. 18-9526
(U.S. July 9, 2020), Appellant’s claim raises three separate questions: (a) the Indian status of Appellant;
(b) the Indian status of the victims; and (c) whether
the crimes occurred on the Creek Reservation. These
issues require fact-finding. We therefore REMAND
this case to the District Court of McIntosh County,
for an evidentiary hearing to be held within sixty
(60) days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to Appellant’s and/or
either victim’s legal status as an Indian and as to the
location of the crime in Indian Country, the burden
shifts to the State to prove it has subject matter
jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified copies
of the transcript within twenty (20) days after the

App.20a
hearing is completed. The District Court shall then
make written findings of fact and conclusions of law,
to be submitted to this Court within twenty (20) days
after the filing of the transcripts in the District Court.
The District Court shall address only the following
issues.
First, Appellant’s status as an Indian. The District
Court must determine whether (1) Appellant has
some Indian blood, and (2) is recognized as an Indian
by a tribe or the federal government.1
Second, the Meinekes’ Indian status. The District
Court must determine whether (1) Steven and Kinya
Meineke have some Indian blood, and (2) are recognized
as Indians by a tribe or the federal government.
Third, whether the crimes occurred on the Creek
Reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record
to the Attorney General. A supplemental brief, addres1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir.
2012); United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th
Cir. 2001).

App.21a
sing only those issues pertinent to the evidentiary
hearing and limited to twenty (20) pages in length,
may be filed by either party within twenty (20) days
after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and conclusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of McIntosh County:
Appellant’s Brief in Chief, filed October 19, 2017;
Appellant’s Reply Brief, filed March 8, 2018; and
Appellee’s Response Brief, filed February 16, 2018.
The present order renders MOOT any request made
to date for supplemental briefing by either party in
this case as well as any request to file an amicus
brief.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 21st day of August, 2020.

App.22a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

